                              U.S. Department of Energy
                              Office of Inspector General




Special Inquiry
Operations at Los Alamos National
Laboratory




3
    The “Acquisition” value of these sampled items amounts to $1,514,478.


DOE/IG-0584                                                                 January 2003
                                U. S. DEPARTMENT OF ENERGY
                                      Washington, DC 20585

                                           January 28, 2003



MEMORANDUM FOR THE SECRETARY


FROM:                          Gregory H. Friedman (Signed)
                               Inspector General

SUBJECT:                     INFORMATION: "Special Inquiry Regarding Operations at
                             Los Alamos National Laboratory

BACKGROUND

On November 18, 2002, the Office of Inspector General began a fact finding inquiry into alle-
gations that senior management of the Los Alamos National Laboratory engaged in a deliberate
cover-up of security breaches and illegal activities, in particular, with respect to reported in-
stances of property loss and theft. The Acting Administrator of the National Nuclear Security
Administration requested this inquiry based, in part, on media reports that Los Alamos employ-
ees had misused the Government purchase order system to buy millions of dollars worth of
goods for personal use and that Los Alamos management had attempted to hide these events
from the Department of Energy and the public.

Shortly after our review began, Los Alamos terminated the employment of two security offi-
cials who had been vocal in criticizing Los Alamos management’s handling of property loss
and theft issues. We expanded our review to evaluate the circumstances surrounding those ter-
minations.

This inquiry did not include a case-by-case validation of whether individual items of property
had been lost or stolen. Ongoing reviews by the Office of Inspector General, the Federal Bu-
reau of Investigation, and others will address a number of those reported instances.

RESULTS OF INQUIRY

Our inquiry disclosed a series of actions by Laboratory officials that had the effect of obscuring
serious property and procurement management problems and weakened or overrode relevant
internal controls. These actions created an atmosphere in which Los Alamos employees were
discouraged from, or had reason to believe they were discouraged from, raising concerns to ap-
propriate authorities. In short, management’s actions – whether intended as a cover-up or not –
resulted in delayed identification and resolution of the underlying property and procurement
weaknesses, and related security concerns. Although our inquiry did not substantiate the allega-
tion that Laboratory management deliberately hid criminal activity, we found that Laboratory
management:

   3
       The “Acquisition” value of these sampled items amounts to $1,514,478.
   •     Failed to take appropriate or timely action with respect to a number of identified prop-
         erty control weaknesses, and related security concerns. There was: (1) inadequate or
         untimely analysis of, and inquiry into, property loss or theft and security issues; (2)
         lack of personal accountability for property; (3) a substantial degree of dysfunction in
         the Laboratory’s communication and assignment of responsibilities for the handling of
         property loss and theft concerns; and (4) inadequate controls over procurement and
         property systems.

   •     Had inadequate Laboratory policies that governed when and under what circumstances
         Laboratory activities must be reported to law enforcement.

   •     Issued, then immediately rescinded without adequate explanation, a memorandum re-
         quiring corrective actions to address “disturbing negative trends regarding Laboratory
         management of Government property.”

   •     Published certain materials emphasizing loyalty to the Laboratory at the possible ex-
         pense of full disclosure of identified problems. This included materials distributed to
         Laboratory employees, in advance of a November-December 2002, Department cyber
         security review, containing such guidance as “Resist the temptation to ‘spill your
         guts’”; “Handwritten notes can be especially damaging….They are not easily dis-
         avowed”; and “Finger pointing will just make the program look bad.”

Our inquiry corroborated a number of the concerns expressed by the terminated security offi-
cials related to weak internal controls and other property management issues. The Labora-
tory’s decision to terminate the two security officials during ongoing external reviews that
were addressing some of the very same issues raised by these officials, and which were later
corroborated, was, in our judgment, incomprehensible. These events raise doubt about Los
Alamos’ commitment to solving noted problems, had the potential to have a chilling effect on
employees who may have been willing to speak out on matters of concern, and were inconsis-
tent with Laboratory and University of California obligations under its contract with the De-
partment of Energy. As you know, the University recently announced that the two security
officials had been re-hired.

Our report of inquiry contains recommendations for corrective action. In particular, responsi-
ble Department officials must ensure that the University of California and the Laboratory’s
management is held accountable for implementing and executing corrective actions resulting
from the current situation at the Laboratory.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration


   3
       The “Acquisition” value of these sampled items amounts to $1,514,478.
SPECIAL INQUIRY REGARDING OPERATIONS AT LOS ALAMOS NATIONAL
LABORATORY


TABLE OF CONTENTS



Background………………………………..……………………………………… 1


Results of Inquiry...…………………………………………………………….… 2


         A. Allegations of Cover-up/Questionable Management Actions…….…. 2

         B. Security Officials’ Terminations.…………………………………….. 4

         C. Internal Control Weaknesses..…..……………………………………. 5


Recommendations.……………………………………………………………….. 9




 3
     The “Acquisition” value of these sampled items amounts to $1,514,478.
BACKGROUND

For 60 years, the University of California (University) has operated the Los Alamos National
Laboratory for the Department of Energy and its predecessor agencies. Among its many im-
portant missions and functions, Los Alamos has critical national security responsibilities, in-
cluding helping to ensure the safety, security, and reliability of the nation’s nuclear weapons
stockpile.

In recent years, Los Alamos has been the subject of intense scrutiny during a number of con-
troversies regarding allegations of espionage, lax security, and related internal control fail-
ures. The Department and Los Alamos initiated actions intended to ensure that the Labora-
tory was carrying out its missions with a heightened emphasis on protecting national security
interests. Realignment of Los Alamos’ security function, or “S” Division, was one such ac-
tion. On a broader scale, Congress and the President created the National Nuclear Security
Administration (NNSA) as a semi-autonomous agency within the Department.

In 2001, Los Alamos undertook a nationwide search to recruit an experienced leader for the
Office of Security Inquiries within the “S” Division. In addition to various security respon-
sibilities, the job announcement for this position provided, in part, that the person hired
would conduct investigations into theft and property protection. Given the sensitive nature
of much of the work at Los Alamos, imbuing this position with a sense of urgency for the
protection of property – especially computers and other technology that may store classified
and other national security information – was consistent with the Laboratory's stated goal to
heighten national security awareness. The nationwide search culminated with the hiring of a
new Security Inquiries Team Leader (Security Inquiries Leader) who took office in January
2002.

On November 5, 2002, anonymous sources were quoted in the news media alleging that Los
Alamos leadership was attempting to deliberately hide major criminal activity, administra-
tive mismanagement, and high-level corruption from the public, the Department, law en-
forcement agencies and others. On November 6, 2002, NNSA’s Acting Administrator re-
quested that the Office of Inspector General conduct an inquiry into the anonymous allega-
tions.

We commenced this inquiry on November 18, 2002. On November 25, 2002, Los Alamos
terminated the employment of the Security Inquiries Leader and another security official.
The timing of this action raised the specter that the terminations could be retaliatory in na-
ture. We, therefore, incorporated an examination of the terminations into our inquiry.

During the course of the inquiry, we interviewed over 60 Laboratory officials and other par-
ties, including the two terminated security officials. We also reviewed thousands of pages of
pertinent records. We did not validate, on a case-by-case basis, whether individual items of
property had been lost or stolen. Other ongoing Office of Inspector
General reviews and investigations, further requests for follow up actions, Department initia-
   3
     Theas“Acquisition”
tives,                  value under
           well as matters    of thesethe
                                       sampled itemsof
                                          purview    amounts to $1,514,478.
                                                       the Federal  Bureau of Investigation (FBI), are
continuing to address a number of those reported instances.
In light of the serious nature of these charges, the personal attention and concern the Secretary
has brought to bear on these matters, and the substantial and understandable public concern that
the Laboratory’s actions have generated, we provided the Secretary with a memorandum on De-
cember 24, 2002. That memorandum contained our preliminary observations.

RESULTS OF INQUIRY

A. Allegations of Cover-up/Questionable Management Actions

Laboratory officials took a number of actions that, in our judgment, obscured serious property
management and security problems. These actions contributed to an atmosphere where Los
Alamos employees were discouraged from, or had reason to believe they were discouraged
from, raising concerns about property loss and theft, or other concerns, to appropriate authori-
ties. Our inquiry, however, did not substantiate the anonymous allegations, reported in the me-
dia on November 5, 2002, that Laboratory management deliberately hid criminal activity.

Management’s actions – whether intended as a cover-up or not – made successful identification
and resolution of the underlying property, procurement, and security weaknesses problematic.
The most overt action Los Alamos took was firing the security officials. This action, taken
amidst ongoing reviews of allegations of lax security controls, was clearly and predictably con-
troversial. Moreover, the officials were fired soon after they spoke with the Office of Inspector
General. It is impossible to imagine that this action would not have had a chilling effect on
other employees who might have contemplated speaking out about problems at the Laboratory.
In our judgment, the terminations undermined management’s actions to address the core issue:
identifying and correcting weaknesses in controls over national security assets.
In addition to the firings, our inquiry disclosed that Laboratory management:

   •   Issued, then immediately rescinded, a memorandum requiring corrective actions to ad-
       dress problems regarding the management of Government property.

   •   Published Laboratory documents that could be interpreted as discouraging Los Alamos
       employees from reporting on the extent or severity of control weaknesses.

                                     Rescinded Memorandum

In an April 2002, memorandum, addressed to all Laboratory “Leaders,” the Laboratory’s Office
of the Chief Financial Officer (CFO Office) cited the need to “call your attention to disturbing
negative trends regarding Laboratory management of Government property and to engage your
support in taking corrective action.” According to the CFO Office, the concerns were that the
amount of property missing during the Fiscal Year 2001 inventory had nearly tripled from the
previous year, to $723,000; and, that substantial amounts of property, valued at $533,000, had
been reported lost or stolen during Fiscal Year 2001.

The3 CFO  Office’s memorandum
     The “Acquisition”                further items
                       value of these sampled  statedamounts
                                                       that neither Los Alamos nor the Department
                                                             to $1,514,478.
could accept $1.3 million (the total of the two categories listed previously) in unaccounted
property. The CFO Office noted that the issue would negatively impact the Laboratory’s rating
in property management. Attached to this memorandum was organization-specific listings re-
flecting property losses.

To address these concerns, the CFO Office described four new quarterly tracking and trend re-
ports that this office would be responsible for issuing. The memorandum requested that each
Los Alamos division develop a corrective action plan to raise awareness of property account-
ability and safeguards. The memorandum also suggested the initiation of a root cause analysis
and planned training, and recommended review of instances of multiple losses or lack of ac-
countability by the same individual. On December 18, 2002, we asked the CFO Office to pro-
vide us copies of each of these reports, including copies of each division’s corrective action
plan.

In a memorandum dated December 19, 2002, we were informed that the April 10, 2002, memo-
randum had actually been rescinded the day after it was distributed. Los Alamos management
decided that it would be more appropriate to provide each division leader only the information
relevant to his or her division and that it served no purpose and was insensitive to people’s pri-
vacy to publish the entire list. Thus, an e-mail was sent asking division leaders to disregard the
memo of the previous day. Given that the guidance was rescinded, there was no requirement to
provide the corrective action plans, and a number of the other new reporting mandates were
never fully effectuated.

This chain of events raised doubts as to management’s commitment to address identified con-
trol weaknesses.

                                        Laboratory Documents

During our inquiry, two other significant documents came to our attention that could be inter-
preted as discouraging Los Alamos employees from reporting on the extent or severity of con-
trol weaknesses.

We reviewed briefing materials for a training course to be attended by Los Alamos employees
in anticipation of a November/December 2002 Department of Energy Inspection & Evaluation
(I&E) review on Laboratory cyber security. The briefing materials, which were prepared by the
Laboratory’s Office of Chief Information Officer (CIO Office), were titled, “Surviving the
[I&E] Audit,” and included the following suggestions:
    • “Resist the temptation to ‘spill your guts’.”
    • “Handwritten notes can be especially damaging….They are not easily
         disavowed.”
    • “Finger pointing will just make the program look bad.”

When shown these materials, a senior Los Alamos management official said that he had not
previously seen them and that they were “stupid.” Subsequently, on December 16, 2002, a
memorandum was sent to certain employees clarifying the purpose of these materials in light of
their3 The
       “potential for misinterpretation.”
           “Acquisition” value of these sampledNevertheless,   it $1,514,478.
                                                items amounts to  was difficult to conceive of any legiti-
mate purpose for such guidance in anticipation of a routine Department of Energy review of se-
curity issues.

A second document, which Los Alamos internal auditors have been required to sign, was titled
a Code of Ethical Conduct statement. This document was based on the Institute of Internal
Auditors (IIA) Code of Ethics, but departed from the IIA code by requiring auditors not to use
information in a manner that could be perceived as “…detrimental to the University of Califor-
nia, the Los Alamos National Laboratory, or the Audits and Assessments Office.” While it may
not have been the intent of the document, reporting erroneous payments or surfacing other inter-
nal control weaknesses – traditional responsibilities of internal auditors – could be perceived as
“detrimental” to Los Alamos. Los Alamos auditors were also asked to “exhibit loyalty in all
matters pertaining to the affairs of the University of California, the Los Alamos National Labo-
ratory, and the Audits and Assessments Office.…” The document in question created, in our
opinion, the appearance of a lack of independence for Los Alamos auditors.

B. Security Officials’ Terminations

We endeavored to evaluate the Laboratory’s decision to terminate the two security officials
consistent with the Department’s standards for protecting contractor employees from retaliatory
termination. Based on our evaluation, we believe it will be difficult for the University of Cali-
fornia to sustain its burden under the prevailing standard for adjudicating these matters.

Specifically, under the Department’s procedures, once an initial case of retaliatory termination
is established, the burden shifts to the contractor entity to demonstrate, by clear and convincing
evidence, that the contractor entity would have taken the same action without the contractor em-
ployee’s disclosure or other protected activity.

In this regard, our inquiry disclosed that:

    •   The two terminated security officials were vocal in their criticisms of the Laboratory’s
        management of property loss and theft concerns.

    •   Laboratory management acknowledged that prior to the arrival of the Security Inquiries
        Leader, Laboratory efforts to inquire into these matters were inadequate.

    •   Recent external reviews, including this inquiry, corroborated a number of the fundamen-
        tal concerns previously expressed by the two terminated security officials relating to
        property and management systems.

    •   As late as October 2002, the Security Inquiries Leader had received a favorable per-
        formance evaluation.

The timing of the terminations was, itself, suspect. A memorandum documenting the Labora-
tory’s stated rationale for the terminations is dated the same day (November 20, 2002) as the
Office of Inspector General’s interview of one of the two security officials. We were advised
by the
    3
        Security
      The        Inquiries
          “Acquisition” valueLeader,   and Laboratory
                             of these sampled          documentation
                                              items amounts to $1,514,478.confirmed, that he had in-
formed his management, in advance, that he and his staff were to be interviewed by the Office
of Inspector General inquiry team.

In the November 20, 2002, memorandum cited above, a senior Los Alamos official documented
what he believed to be valid reasons for the terminations. We evaluated these reasons, and con-
cluded that a substantial number of them do not withstand scrutiny.

C. Internal Control Weaknesses

In a March 26, 2002, memorandum to Los Alamos management, the Security Inquiries Leader
expressed significant concern with the manner in which Los Alamos addressed property loss
and potential theft. Our inquiry corroborated a number of those concerns. Specifically, we
found: (1) inadequate or untimely analysis of, and inquiry into, property loss or theft and secu-
rity issues; (2) lack of personal accountability for property; (3) a substantial degree of dysfunc-
tion in the Laboratory’s communication and assignment of responsibilities for the handling of
property loss and theft concerns; and (4) inadequate controls over procurement and property
systems.

                                   Property and Security Issues

We noted that property loss and theft issues, and related security considerations, were not sub-
ject to thorough and consistent analysis. For example, in 2001, the report documenting the loss
of a security radio was inadequate. It did not provide information concerning what frequencies
might have been compromised.

The Security Inquiries Leader expressed this and related concerns in his March 2002 memoran-
dum, including those with respect to the entry into a law enforcement tracking system of Labo-
ratory property theft reports. Although he noted that such reports were being provided to the
Los Alamos Police Department and the FBI, the Security Inquiries Leader asserted that those
agencies were not entering the property information into the National Crime Information Center
records because the reports were of poor quality.

As noted by a counterintelligence official, the theft of Laboratory property can have national
security implications. In this vein, with respect to previous Laboratory property reports he re-
viewed, the Security Inquiries Leader observed:

       The reports indicate that no questions were asked pertaining to the type of data that may
       have been on stolen computers, laptops, PDAs, and digital cameras. It is possible that
       they may have had sensitive or proprietary materials on those systems, but inquiry per-
       sonnel failed to explore that potential; at least one can assume this view based on the
       data contained in the inquiry reports.

Based on these concerns, we requested that Los Alamos explain the steps taken to account for
lost computers and other sensitive equipment. We also inquired as to any efforts made to evalu-
ate whether classified or other protected information had been compromised as a result. The
Laboratory
    3        producedvalue
      The “Acquisition” a draft memorandum,
                            of these sampled itemsdated December
                                                   amounts          18, 2002, in which the CIO Office
                                                           to $1,514,478.
concluded that none of the lost, stolen, or unlocated computers identified by Los Alamos con-
tained classified information. The CIO’s memorandum also concluded that there were at
least 258 computers lost, 44 computers stolen, and 61 computers unlocated for the Fiscal
Years 1999, 2000, 2001, and 2002. We did not validate these numbers, or the CIO’s conclu-
sion concerning the non-compromise of classified information. In fact, a CIO official told us
that there were inconsistencies between these numbers and previous reports provided by the
CFO and the Office of Security Inquiries.

A CIO official acknowledged that the Laboratory’s processes for reporting lost, stolen, and
unlocated computers are “fragmented.” He noted inconsistencies between computers re-
ported lost and stolen to the Office of Security Inquiries and data available to property man-
agement officials. Another Laboratory official confirmed that these reporting mechanisms
are not integrated throughout the Laboratory, and both of these key officials asserted that
they have recently recommended corrective action to ensure that appropriate systems are in-
tegrated.

The timing of the Laboratory’s effort to reconcile these important questions is, in and of it-
self, troubling. It was not until the November-December 2002 timeframe that there was in-
tensive effort in this regard.

                                              Property Accountability

According to a Los Alamos official, Laboratory employees have not been routinely held li-
able or accountable for lost property under their control. This official explained that when
an employee first takes custody of an item of property, the employee signs an
“accountability” statement. However, Los Alamos management generally chose not to en-
force the statements, according to this official, but rather chose to “write off” the missing
property at the end of an inventory cycle. An accounts receivable official could not recall
ever receiving any restitution from any Los Alamos employee for a lost or stolen item for
which he or she was responsible. The Security Inquiries Leader made a similar point in his
March 2002 memorandum.

Based on these assertions, we reviewed electronic records of “Unlocated,” “Lost,” and
“Stolen” property for Fiscal Years 2000, 2001, and 2002. A judgmental selection disclosed
the following types of property categorized as “Lost,” “Stolen,” or “Unlocated”:




  3
      The “Acquisition” value of these sampled items amounts to $1,514,478.
                             Item                       Quantity          Acquisition
                                                                            Value 3

           Desktop Computers                                 204               $694,938
           Laptop Computers                                   42               $151,821
           Analyzers                                          8                 $99,225
           Cameras                                            12                $11,318
           Computer Printers                                 127               $177,141
           O scilloscopes                                     17               $207,620
           Power Supplies                                     5                 $51,843
           Radio Transceivers                                 27                $35,596
           Video Recorders                                    18                $47,293
           Telephones (including cell phones)                 80                $27,208
           Scanners                                           12                $10,475

These records did not contain sufficient information to fully assess the nature and extent of
property losses. Nevertheless, the results of our judgmental selection raise additional ques-
tions about the Laboratory’s property controls and accountability.

Another issue we identified relates to Los Alamos’ use of “drop points” for the delivery of
new equipment. Under the drop point system, Laboratory property is not delivered, uni-
formly, to a central, secure location. At such a secure central location, the equipment can be
tagged, inventoried, and consistently tracked. We were told that many of these Laboratory
drop points are in open spaces with little or no security. A number of key officials advised
that there have been insufficient Laboratory efforts to ensure that equipment delivered to
Laboratory drop points is safeguarded. We were also told that property would be left at
these locations for inordinate amounts of time, without being checked by property adminis-
trators.

                                Communication and Responsibilities

Our inquiry disclosed a substantial degree of dysfunction in Los Alamos’ communication
and assignment of responsibilities and authorities for the handling of property loss and theft
concerns. For example, there was organizational inconsistency between the roles of the Of-
fice of Audits and Assessments and the Office of Security Inquiries. The Office of Audits
and Assessments was tasked with the internal review of Laboratory “waste, fraud, and
abuse” concerns, whereas the Office of Security Inquiries was responsible for reviewing al-
leged “theft.” This left not only the potential for “overlap” in responsibilities, but
“underlap,” as one senior security official characterized this condition to our inquiry team.
_______________________________
3 3The “Acquisition” value
 The “Acquisition” value of of these
                            these    sampled
                                  sampled     items
                                           items    amounts
                                                  amounts to to $1,514,478.
                                                             $1,514,478.
There were also mixed messages sent to the two former security officials with respect to the
scope of their authorities and responsibilities. For example, Security Inquiries officials were
told that they were not “investigators.” At the same time, our inquiry disclosed that one of the
terminated security officials was directed by a senior Los Alamos official to travel off site, to
another state to interview a private citizen, to obtain
information concerning a matter (the alleged improper purchase of a Mustang automobile),
which included the possibility that it was criminal in nature. This appeared inconsistent with
previous direction, and other management communications to these officials, about the scope of
their responsibilities and authorities.

Further, Laboratory management acknowledged that there were inadequate Laboratory policies
that governed when and under what circumstances Laboratory activities must be reported to law
enforcement. Laboratory officials had been drafting such a policy since the spring of 2002, but
the policy remained in draft at the time of our inquiry.

                                    Procurement and Property Systems

As we completed our inquiry fieldwork, the final report of the Laboratory’s external review
team was completed. That report noted a number of Laboratory “programmatic weaknesses”
with respect to Los Alamos’ controls over purchase cards, including:

   •     Failure to reconcile and approve monthly statements;

   •     Failure to resolve disputed transactions;

   •     Failure to properly account for controlled property;

   •     Purchase of restricted items in violation of Laboratory policies;

   •     Insufficient documentation of items purchased;

   •     Inadequate or ineffective sanctions for non-compliance;

   •     Insufficient training, especially for approvers;

   •     Insufficient program audit and review procedures;

   •     Failure to properly manage cardholder spending limits; and,

   •     Failure to safeguard card information.

The external review team recommended a number of corrective actions, and noted that they had
not validated the Laboratory’s implementation of recent corrective actions.
   3
       The “Acquisition” value of these sampled items amounts to $1,514,478.
We also noted during our inquiry that NNSA had completed an assessment of the Labora-
tory’s “Personal Property Management” and “Procurement Management,” in December
2002, and rated the Laboratory as “excellent” in both categories. Although we did not
evaluate the process by which these or earlier ratings were issued, the facts disclosed dur-
ing our inquiry suggest that the Department’s process for arriving at such ratings warrants
review by appropriate Department officials.

RECOMMENDATIONS

In light of these facts, we are making the following recommendations for corrective action.
Specifically, it is incumbent upon responsible Department officials to ensure that:

           1.   Recently announced corrective actions are fully implemented and exe-
                cuted;

           2.   Additional follow-up and corrective action is taken with respect to the mat-
                ters disclosed in this report, including:

                   (i) inadequate or untimely analysis of, and inquiry into, property loss
                       or theft and security issues;

                   (ii) lack of personal accountability for property;

                   (iii) substantial degree of dysfunction in the Laboratory’s communica-
                         tion and assignment of responsibilities for the handling of property
                         loss and theft concerns; and,

                   (iv) inadequate controls over procurement and property systems;

           3.   The Department processes to evaluate the Laboratory’s procurement and
                property accountability systems for fee purposes are reviewed and im-
                proved based on the current experience at the Laboratory;

           4.   Concrete steps are taken to communicate to Laboratory employees that
                they are encouraged to identify and disclose waste, vulnerabilities, and
                other concerns in an atmosphere free of reprisal; and,

           5.   The Department does not bear the costs incurred by the University in con-
                ducting its own inquiries into these matters, or in otherwise effectuating
                remedial action, including the costs associated with any monetary settle-
                ments deemed just and proper, and which may be extended to the two ter-
                minated security officials.
                                                                                     IG Report No.: DOE/IG-0584

                                         CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________                   Date __________________________

Telephone _________________________                   Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                          Office of Inspector General (IG-1)
                                                Department of Energy
                                               Washington, DC 20585

                                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.



         3
             The “Acquisition” value of these sampled items amounts to $1,514,478.
  The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                        through the Internet at the following address:


               U.S. Department of Energy, Office of Inspector General, Home Page
                                    http://www.ig.doe.gov

                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.




 3
     The “Acquisition” value of these sampled items amounts to $1,514,478.
